U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

November 4, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Hollyfrontier Cheyenne, et al. v. Renewable Fuels Association, et al.,
S.Ct. No. 20-472

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on September 4,
2020, and placed on the docket on October 13, 2020. The government’s response is due on
November 12, 2020.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including December 14, 2020, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Jeffrey B. Wall
Acting Solicitor General
cc: See Attached Service List

20-0472
HOLLYFRONTIER CHEYENNE, ET AL.
RENEWABLE FUELS ASSN., ET AL.

RYAN C. MORRIS
SIDLEY AUSTIN LLP
1501 K STREET, NW
WASHINGTON, DC 20005
202-736-8000
RMORRIS@SIDLEY.COM

